WSFS Bank Cash Back Visa®
Credit Card Terms and Conditions

Rates, fees, and other important costs of the WSFS Bank Cash Back Visa Credit Card are disclosed below.
Additional fees and account terms are described in the WSFS Bank Credit Card Agreement (“Agreement”) that
will be enclosed with the card if a card is issued. The terms disclosed below and in the Agreement may be
changed at any time subject to applicable law. Based on our evaluation of your credit report and other factors, if
approved for a WSFS Bank Cash Back Visa Credit Card, you will receive a credit card account ("Account") with a
minimum credit line of $500. For purposes of these disclosures, “you” and “your” mean each person who applies
for an Account
Interest Rates and Interest Charges
Annual Percentage Rate (APR)
for Purchases

APR for Cash Advances
How to Avoid Paying Interest on
Purchases
Minimum Interest Charge
For Credit Card Tips from the
Consumer Financial Protection
Bureau
Fees
Annual Fee
Transaction Fees
• Balance Transfer

12.49%, 15.49%, 18.49% or 21.49%, based
on your creditworthiness.
This APR will vary with the market based on the Prime Rate.
24.99%
Your due date is at least 25 days after the close of each billing
cycle. We will not charge you any interest on purchases if you pay
your entire balance by the due date each month.
If you are charged interest, the charge will be no less than $2.00.
To learn more about factors to consider when applying for or
using a credit card, visit the website of the Consumer
Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.
None
Either $10 or 3% of the amount of each Balance Transfer,
whichever is greater.

• Cash Advance

Either $10 or 3% of the amount of each Cash Advance, whichever
is greater.

• Foreign Transaction
Penalty Fees

3% of each transaction in U.S. dollars.

• Late Payment

Up to $35.

• Returned Payment

Up to $35.

How We Will Calculate Your Balance: For Purchase and Balance Transfer balances, we use a method called
“average daily balance (excluding new purchases and new balance transfers).” For Cash Advance balances, we
use a method called “average daily balance (including new cash advances).”
Billing Rights Summary: Information on your right to dispute transactions is included with the account-opening
disclosures (card mailer) and your monthly periodic statement.
_

1

_

_

_

How the Variable APRs on your Account are Determined: Unless an introductory or promotional APR is
applicable, the APRs on your Account for Purchases and Balance Transfers will be determined each billing cycle
by adding a “margin” to the “Index”. Please see below and in your Agreement for more information.
How Daily Periodic Rates Are Used To Calculate Interest: The daily periodic rate for your Purchase and
Balance Transfer APR is 0.03422%, 0.04244%, 0.05066% or 0.05888%, and Cash Advance APR is 0.06847%.
Margins: For Purchases and Balance Transfers, margins of 9.24%, 12.24%, 15.24% or 18.24% will be added to
the Index, based on your creditworthiness.
Index: The APRs that apply to your Account for Purchases and Balance Transfers are subject to change each
Billing Cycle with changes to the Index. The Index is the Prime Rate (U.S.) as published in the Money Rates
section of The Wall Street Journal. As of 3/16/2020, the Prime Rate was 3.25%.
Payment Allocation. Payments are allocated at our discretion as permitted by applicable law. The amount of
each payment equal to the Total Minimum Payment Due is allocated first to unpaid Transaction Fees, Account
Fees, and Minimum Interest Charges, then to unpaid interest charges, then to the balance with the lowest APR
and then to balances with higher APRs. Payment amounts in excess of the Total Minimum Payment Due will be
applied to balances with higher APRs before balances with lower APRs.
Important Information About Procedures for Opening a New Account (USA Patriot Act): To help the
government fight the funding of terrorism and money laundering activities, Federal law requires all financial
institutions to obtain, verify and record information that identifies each person who opens an account. What this
means to you: When you open an account, we will ask for your name, address, date of birth, and other information
that will allow us to identify you. We may also ask to see your driver’s license or other identifying documents.
About This Credit Card Program: This credit card program is issued and administered by Wilmington Savings
Fund Society, FSB located in Wilmington, Delaware. Any Account opened in response to this application shall be
governed by the laws of the State of Delaware. Visa is a registered trademark and service mark of Visa
International Service Association, and is used pursuant to a license.
Card Eligibility: To be eligible for an Account, you must meet certain minimum income, residency, age, credit
quality and other requirements.
Balance Transfers: You may be able to transfer balances from eligible credit card accounts to your Account.
Balance Transfers are subject to a fee based on the amount of the transfer with a minimum fee as
indicated in the Fees Table above, and are subject to your available credit limit. If the total amount
requested exceeds your available credit limit, we may send full or partial payment to your creditors in the order
provided to us.
We may limit the number and types of accounts from which we will allow Balance Transfers, and the times,
manner, and circumstances in which Balance Transfers may be requested. Balance Transfers may not be payable
to you or made payable to cash. Balance Transfers may be used to pay off other creditors, but cannot be used to
pay down or to pay off accounts owned by WSFS Bank or to any bank now or previously affiliated with WSFS
Bank.
It may take 2 to 4 weeks to process a Balance Transfer request after your Account is opened. You must continue
paying each of your creditors until the requested Balance Transfer appears on your monthly billing statement sent
to you by your creditor as a credit. Your other account(s) will not be closed even if you transfer your entire
balance(s). If you want to close such other account(s), please contact your other creditors directly. Note that if you
have a dispute with a creditor and pay that balance by transferring it to your Account, you may lose certain dispute
rights.

2

Introductory or Promotional APRs on Balance Transfers: If you take advantage of a 0% Introductory or
Promotional Annual Percentage Rate (APR) Balance Transfer offer and then you use your Account to
make new Purchases, you can avoid paying interest on those new Purchases if you pay the Minimum
Payment Due and the total outstanding Purchases balance (this includes any fees that may have been
assessed to your Account) by the Payment Due Date shown on your monthly billing statement. By
following these instructions and paying timely, you will not be assessed interest on new purchases made
during that billing cycle and you will be able to maintain the benefits of carrying balance transfer
balances at the 0% introductory APR.
Transfers requested with Convenience Checks are processed as Cash Advances, not as Balance
Transfers. If you have a dispute with a creditor and pay that creditor with a Balance Transfer or Convenience
Check, you may lose certain dispute rights with that creditor.
Your Telephone Number: When you give us your mobile phone number, we have your permission to contact
you at that number about your Account. Your consent allows us to use text messaging, artificial or pre-recorded
voice messages and automatic dialing technology for informational and Account service calls, but not for
telemarketing or sales calls. It may include contact from companies working on our behalf to service your
Account(s). Message and data rates may apply. You may contact us anytime to change these preferences.
Monitoring/Recording of Telephone Calls: You consent and agree that we, any of our affiliates, and any other
persons that we authorize in accordance with applicable law, may monitor and/or record any and all telephone
communications with you without any additional notice of such monitoring or recording, unless expressly required
by applicable law.
Information Sharing: WSFS Bank’s Privacy Policy is available online at www.wsfsbank.com/Privacy-Policy
Important Notice & Acknowledgement: By signing or otherwise authorizing and submitting an application, you
authorize Wilmington Savings Fund Society, FSB, its successors, assigns, employees and designated agents
(together, "WSFS Bank", “us” or “our”), to gather and obtain credit, employment and other information about you,
including credit bureau reports, that WSFS Bank may deem necessary or appropriate in order to evaluate your
application for credit. If your application is approved and credit is extended to you, you further authorize WSFS
Bank to re-verify any or all of such information from time to time, including obtaining additional credit bureau
reports, for any legitimate or permissible purpose in connection with such extension of credit, such as for the
purpose of reviewing the Account, increasing or decreasing the credit line on the Account, or for taking collection
on the Account, and to furnish information concerning your Account and our credit experience with you to
consumer reporting agencies and others who may properly receive that information. If you ask, you will be
informed whether or not a consumer report was requested, and if a report was requested, you will be informed
upon request of the name and address of the consumer reporting agency that furnished the report. You agree
that all credit card applications remain the property of WSFS Bank. By submitting a credit card application to
WSFS Bank, you also certify that all the information you have provided is true and complete, that no essential
information has been concealed, and that no misrepresentations have been made on the application. If
approved, you agree to the terms and conditions applicable to the Account for which you are approved. By
submitting a credit card application to WSFS Bank you agree to the Credit Card Terms and Conditions, including
the important rate, fee and cost information and the conditions of the Agreement, including the right of WSFS
Bank to change terms and add new terms to the Account at any time. By activating a card or the Account or
allowing an authorized person to activate or use a card or the Account, you personally agree to fully pay all
amounts owed in connection with the Account as required by the Agreement. You also agree that the federal and
state courts sitting in New Castle County, Delaware shall have exclusive jurisdiction over any judicial action or
proceeding relating to or arising out of the Account or the Agreement, and you agree to submit to the personal
jurisdiction of such courts. You also agree to waive the right to a trial by jury. You agree that the Account will
only be used for lawful personal, family or household purposes. You further acknowledge you are at least 18
years of age (19 years of age for residents of Alabama or Nebraska or 21 years of age if you are a resident of
Mississippi or Puerto Rico).

3

Notice to California Residents: Married applicants may apply for a separate account(s).
Notice to New York Residents: Information About Applying for a Credit Card: When you sign or otherwise
submit a credit application, you are providing your consent and authorizing WSFS Bank, and its successors,
assigns, employees and designated agents to gather credit, employment and other information about you,
including credit bureau reports, for purposes of evaluating your application for credit. If your application is
approved and credit is extended to you, we may take steps to re-verify any or all of such information from time to
time, including by obtaining additional credit bureau reports, for any legitimate purpose in connection with such
extension of credit, such as for the purpose of reviewing the Account, increasing the credit line on the Account, or
for collecting on the Account. In addition, we will furnish information concerning your Account to consumer
reporting agencies and others who may properly receive that information. If you ask, you will be informed
whether or not a consumer report was requested, and if a report was requested, you will be informed upon
request of the name and address of the consumer reporting agency that furnished the report. When you submit a
credit application to us, you are certifying that you have not concealed essential information for determining your
identity and creditworthiness, and that no misrepresentations have been made on the application. If approved,
you agree to abide by the terms and conditions applicable to the account. New York Residents may contact the
New York State Department of Financial Services by telephone or visit its website for free information on
comparative credit card rates, fees and grace periods. New York State Department of Financial Services: 1-800342-3736 or http://www.dfs.ny.gov.
Notice to Ohio Residents. The Ohio laws against discrimination require that all creditors make credit equally
available to all creditworthy customers, and that credit reporting agencies maintain separate credit histories on
each individual upon request. The Ohio Civil Rights Commission administers compliance with this law.
Notice to Rhode Island and Vermont Residents: A consumer credit report may be ordered in connection with
this application, or subsequently for purposes of review or collection of the Account, increasing the credit line on
the Account, or other legitimate purposes associated with the Account. If you are a Vermont resident, you
consent to the obtaining of such reports by signing or otherwise submitting a credit application.
Notice to Married Wisconsin Residents: No provision of any marital property agreement, unilateral statement
under Section 766.59 of the Wisconsin Statutes or court decree under Section 766.70, adversely affects the
interest of the creditor, WSFS Bank, unless WSFS Bank, prior to the time of the credit is granted, is furnished a
copy of that agreement, statement or decree, or has actual knowledge of the adverse provision when the
obligation to WSFS Bank is incurred. IF I AM A MARRIED RESIDENT, CREDIT EXTENDED UNDER THIS
ACCOUNT WILL BE INCURRED IN THE INTEREST OF MY MARRIAGE OR FAMILY. Married applicants must
provide their Social Security number and address and their spouse's name and address to WSFS Credit Card
Services, P.O. Box 976, Claymont Delaware 19703. If the card from which you are applying is granted, you will
notify WSFS Bank if you have a spouse who needs to receive notification that credit has been extended to you.
Notice to Delaware and Oregon Residents. Service charges not in excess of those permitted by law will be
charged to the outstanding balance from month to month. You may pay more than the minimum payment due, up
to your entire balance, at any time.
IMPORTANT INFORMATION ABOUT THE WSFS CASH BACK PROGRAM: The following contains the
rewards program rules ("Program Rules") for the WSFS Bank Cash Back Visa Credit Card (the "WSFS Cash
Back Program") and includes important conditions and limitations. Use of your Account constitutes your
acceptance of each of the terms described below and the terms of the Agreement. Please read these Program
Rules and keep this document in a safe place. Capitalized terms not defined in these Program Rules have the
meaning ascribed to them in the Agreement. To qualify for participation in the WSFS Cash Back Program:
D You must maintain an open and active Account that is not in default under the Agreement with us.
D You must be an individual (corporations, partnerships, and other entities may not participate) and use the
Account only for personal, family or household purposes.

4

How do I earn WSFS Cash Back?
You will earn one 1% Cash Back on all new retail purchases made using your Account less credits, returns, and
adjustments ("Net Purchases") charged in a billing cycle, subject to the other terms of the Agreement.
Balance Transfers, Cash Advances, purchases made by or for a business or for a business purpose, purchases
of travelers checks, money orders, lottery tickets, gambling chips, wire transfers, foreign currency, purchases or
reloading of prepaid cards, or purchases of any other cash equivalents, fees, interest charges, and
unauthorized/fraudulent transactions do not earn WSFS Cash Back.
How can I redeem my WSFS Cash Back?
WSFS Cash Back may only be redeemed upon the request of the primary Account holder at specified levels. In
order to redeem for cash back, your WSFS Cash Back reward must equal $25 or more. You may choose to
redeem your rewards as either a statement credit or a direct deposit to a checking or savings account of your
choice. To redeem your cash reward, call 1-888-WSFSBank or visit wsfsbank.com and log in to WSFS Bank’s
online banking system.
Does WSFS Cash Back expire?
D For as long as the Account remains open and in good standing, and the WSFS Cash Back Program
remains in effect, your cash rewards will not expire and there is no restriction on the amount of cash
rewards that may be earned annually.
D Your WSFS Cash Back rewards will be forfeited if your Account is closed for any reason, whether by you
or by us. See below for additional restrictions.
Are There Any Other Redemption Restrictions?
Yes, your Account must be open and in good standing in order to redeem WSFS Cash Back rewards. If your
Account is closed for any reason, by you or by WSFS Bank, your participation in the WSFS Cash Back Program
will be terminated and the total balance of any unredeemed/accumulated rewards will be forfeited. You will also
forfeit any unredeemed/accumulated rewards if you cancel your participation in the WSFS Cash Back Program or
if the WSFS Cash Back Program is terminated. We may, at our sole discretion, cancel, modify, restrict, or
terminate the WSFS Cash Back Program or any aspects or features of the WSFS Cash Back Program at any
time without prior notice. All interpretations of the WSFS Cash Back Program shall be at our sole discretion. In
the event of any fraudulent, abusive, or gaming activity related to the WSFS Cash Back Program, as determined
by us at our discretion, we reserve the right to make adjustments to your cash rewards and/or to cancel your
participation in the WSFS Cash Back Program, close your Account at any time, and/or take whatever other
actions or options may be available to us. Cash rewards have no cash value except when redeemed in
connection with the WSFS Cash Back Program, and may not be used in place of payment, in whole or in part, of
any portion of a required Minimum Monthly Payment or any other required payment on a credit card or other
account owed to WSFS Bank. WSFS Cash Back may not be transferred or assigned.
If you have any questions, you may contact WSFS Bank at 1-888-WSFSBank.
© 2020 Wilmington Savings Fund Society, FSB. All rights reserved.

5

